NO 19-

’goto

IN THE
SUPREME COURT OF THE UNITED STATES

Supre

0fC 16 2013
MICHAEL S, BARTH,
PETITIONER,
V.
BERNARDS TOWNSHIP, ETAL.,
RESPONDENTS.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
NEW JERSEY SUPREME COURT

PETITION FOR WRIT OF CERTIORARI

MICHAEL S. BARTH
P.O. BOX 832
FAR HILLS, NEW JERSEY 07931
917-628-6145
PETITIONER PRO SE

office

2^CLERK

i

QUESTIONS PRESENTED
There are a number of questions and sub
questions whether to revisit, or distinguish this case
from, National Private Truck Council. Inc, v.
Oklahoma Tax Commission. 515 U.S. 582 (1995);
alternatively distinguish this case from the denial for
petition for certiorari in General Motors Corn, v. City
of Linden. 143 N.J. 336 (1996), cert denied 519 U.S.
816 (1996); or uniquely and independently consider
these facts and circumstances to grant certiorari on
grounds because of the federal unconstitutional
process of the court below (see infra), in whatever
terms it should be characterized.

ii

PARTIES TO THE PROCEEDING
Petitioner Michael S. Barth owns and farms
property in Bernards Township, Somerset County,
New Jersey. Respondent Bernards Township is a
Governmental Entity in New Jersey that brought
suit against Barth in Somerset County Tax Court.
Respondent Somerset County is an entity that is
responsible for its County Board of Taxation.
Respondent David Centrelli was part of the tax
assessor’s office in Bernards Township and signed a
“roll-back” complaint” against Barth in the Somerset
County Tax Court. Respondent Somerset County
Board of Taxation is in part supposed to hear certain
tax matters. Respondent Robert Vance is the
administrator of the Somerset County Board of
Taxation. Respondent John Lowe was the President
of the Somerset County Board of Taxation during the
time of the proceedings at issue. Respondents John
and Jane Does sat on the Somerset County Board of
Taxation during the time of the proceedings at issue.

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
PARTIES TO THE PROCEEDINGS
TABLE OF AUTHORITIES

1
11
IV

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

RELEVANT CONSTITUTIOANL AND
STATUTORY PROVISIONS................

1

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE WRIT

3

CONCLUSION

7

APPENDIX
Order of the Supreme Court of New Jersey

al

Unpublished Opinion of the Appellate Division
of the Superior Court of New Jersey................

a2

April 29, 2019 Petition for Certification

a5

May 25, 2019 Petition for Certification Reply
Brief.................................................................

a23

iv

September 1, 2015 Centrelli email missing page
2 of complaint was instructions........................... a26
September 7, 2015 Barth Memo To County
Tax Board ..........................................................

a28

October 12, 2015 Barth Memo to County
Tax Board....................................................

a30

October 27, 2015 Barth post hearings pleading . . a34

TABLE OF AUTHORITIES
National Private Truck Council, Inc. v. Oklahoma
Tax Commission, 515 U.S. 582 (1995).................... 4
General Motors Corp. v. City of Linden. 143 N. J.
336 (1996), cert denied 519 U.S. 816 (1996)......... 4,5

28 U.S.C. §1257

2

42 U.S.C. §1983

2

N.J.S.A. 54:3-24 Perjury

2

N.J.S.A. 54:3-23 Disobedience of Witness

2

https://malinowski.house.gov/media/pressreleases/representative-malinowski-testifiessupport-farmland-preservation......................

5

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner Michael S. Barth respectfully
submits this Petition for a Writ of Certiorari to the
Supreme Court of New Jersey.
OPINIONS BELOW
The Order of the Supreme Court of New
Jersey (App., infra la) is found at 2019 WL 4725184,
N.J., Sep. 20, 2019. The Unpublished Opinion of the
Appellate Division of the Superior Court of New
Jersey (App., infra 2a) is found at 2019 WL 1111133,
N.J. Super. A.D., Mar. 11, 2019. An opinion of the
Law Division of the Superior Court of New Jersey is
not reported and not included herewith. A
“judgment” of the Somerset County Board of
Taxation is not reported and is not included
herewith.
JURISDICTION
The New Jersey Supreme Court entered
judgment on September 20, 2019. This Court’s
jurisdiction rests on 28 U.S. Code 1257.
UNITED STAETS CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
The Fourteenth Amendment of the United States
Constitution, 28 U.S.C. §1257 and 28 U.S. Code
1983.

2

STATEMENT OF THE CASE
It is not clear if this case was originated by
Bernards in retaliation, or just a complete
blundering; and although everyone wants to stay in
good graces with their state highest court,
unfortunately the so called New Jersey judiciary let
this matter to get out of hand, and by doing so,
violated the United States Constitution.
This case began when Bernards Township,
then plaintiff, filed, on their admittedly mistaken
legal theory, a “roll-back” complaint, against Barth,
then the defendant. Appendix A 35-36. That
mistaken legal theory was admitted by then attorney
Martin Allen, before the County Tax Board in his
opening statement that “failure of a farmer to
provide proof of income automatically entitled a
township to roll back taxes”. IcL The Board President
John Lore took a brief recess to look up the case law
that Barth cited in objection to Martin Allen’s error,
which should have resulted in the dismissal of the
complaint filed against. However, since John Lore
was also a coworker with the principal of the law
firm Martin was employed, he let the case continue.
Martin Allen personal friendship with John Lore,
was also shown by a previous tax board matter that
Barth was involved years earlier, where Martin
Allen started off his case that he and the President
Lore “were talking [impermissible ex parte] about
the case before the hearing.* (*Any reference to a
hearing is not to suggest a hearing that comported
with minimum due process.) IcL at A34-41.
The New Jersey Department of Treasury
indicated the Complaint signed by David Centrelli,
then tax assessor for Bernards Township was

3

defective as the complaint cited outdated statutory
notice requirements for the number of days’ notice
before a roll back hearing, and also only constituted
one of the two pages of the complaint. Id. at 6.
Centrelli indicated he omitted sending the “second
page” of the Complaint because in his words, “it was
only the instructions”. Id. at A26.
The Tax Board administrator Vance was
equally incompetent because he mailed Centrelli’s
one (of two) page defective complaint while he was
walking out the door to go on vacation, and was not
available to address the defective notice of a
“hearing” the day after Labor Day. It was only until
the day after Labor Day, Vance rescheduled that
improperly noticed hearing, that caused irreparable
to Barth who had to prepare for an improperly notice
hearing on a national holiday weekend, when the
Tax Board was out enjoying a National holiday. Id.
28-33.
The administrator indicated when he called to
reschedule the proceeding that he would instruct
Centrelli to send Barth the “evidence” he expected to
rely on at the roll back hearing, that Centrelli never
complied with, or Vance never followed through.
Vance did call Barth about the day of the reschedule
hearing to tell Barth to contract Centrelli basically
on the day of the hearing to get that documentation.
Vance was evasive at best, if not a liar, as on the day
of the hearing did not comply with the
administrators “order”. Vance apparently had
mastered half-truth’s as when Lore asked Vance if he
told Centrelli to provide Barth with the
documentation Centrelli expected to rely on, Vance
said he told Barth to reach out to Centrelli, which
was true that morning, but in effect Vance lied by

4

not disclosing he had previously said he himself
would instruct Centrelli to provide Barth with that
documentation. Id. The summary provided
unfortunately shows the Tax Board hearing
constituted a kangaroo proceeding. Ich 24-41. Not
only was the tax board proceeding a kangaroo
tribunal, while the case was pending appeal, the tax
assessor stated to this party that his testimony
before the board was falsehood. According to N. J.S.A.
54:3-24 Perjury, the New Jersey courts should have
punished the tax assessor for both his false
testimony, and not providing what the board
administrator indicated Centrelli failed to do
N.J.S.A. 54:3-23 Disobedience of Witness.
REASONS FOR GRANTING THE WRIT
The basis of the decision below is repugnant to the
United States Constitution Due Process Clause and
is inconsistent to this Court’s precedent National
Private Truck Council. Inc, v. Oklahoma Tax
Commission. 515 U.S. 582 (1995). The Court
indicated it would revisit National Private Truck
upon certain facts and circumstances, where here,
the much more egregious facts and procedures
require that revisit.
Furthermore, it does not appear unreasonable that
this Court will find that New Jersey Court system
has abused the denial of certiorari in General Motors
Corp. v. City of Linden. 143 N.J. 336 (1996), cert
denied 519 U.S. 816 (1996); to not provide the
minimum due process as required under the United
States Constitution.

5

For example, this case is extremely distinguishable
from GMC. in that there GMC was the initial
plaintiff before the County Board. In effect, GMC got
a second bite of their claim when they appealed and
received a proceeding de novo.
Contrast here, where the New Jersey structure goes
unconstitutionally awry is that Bernards as the
original plaintiff gets a second bite at the apple as
New Jersey’s convoluted rules switch the role that a
perjured Bernards, where their tax assessor’s
testimony was stricken as net opinion, receives a
benefit from the New Jersey Court system they do
not deserve.
Another distinguishing factors this case and GMC is
GMC as a multi-billion dollar enterprise, is
remarkably different than here, a farm of
approximately 6 acres, under various federal
contracts, where even recently Congressman
Malinowski testified about the challenges facing New
Jersey Farmers. See e.g.,
https://malinowski.house.gov/media/pressreleases/representative-malinowski-testifies-supportfarmland-preservation
Even if there isn’t global warming, and even if in the
future another ice age is coming, the reality of the
recent warm winters ruin the ability to harvest
maple sap in New Jersey, and Bernards Township
deer killing fields in adjoining properties, also
attacks many deer who bucks during the runt season
just before the Christmas season, basically destroy
nearly countless Christmas trees that get close to a
significant age for sale.

6

Perhaps the only “constitutional act” below was
when the New Jersey Chief Judge, upon this party’s
suggestion, recused himself on an apparent conflict
of interest where in effect otherwise, the Chief Judge
would have to overturn a ruling from a Tax Court
judge that the Chief, on his own, had recently
promoted to the Appellate Division without any
advice and consent of the New Jersey legislature.
To the extent that GMC relied primarily on National
Private Truck Council, the state court below
incorrectly relied on the denial of certification in
General Motors Corp (GMC) in ruling against this
party. While the New Jersey Supreme Court in GMC
may initially have been well intended in a self-belief
that the New Jersey provided sufficient due process;
from a United States Supreme Court perspective,
denying GMC has resulted in unintended
consequences when applied here, it allowed a state
court to craft rulings on semantics and processes in
name only, whereas in this case, other than mere “lip
service”, the state court appears to actually intended
an unconstitutional consequences and outcome.
Perhaps New Jersey is known for a lot of things, but
perhaps only in New Jersey can a tax assessor file a
false claim, commit perjury, testimony get stricken
net opinion, not give constitutional notice, have an
attorney who is not counsel of record enter into ex
parte communication with a superior court judge,
and tax court judge only send his scheduling orders
to one party, and the New Jersey Supreme Court
grant the unscrupulous costs.

7

Perhaps as Justice Gorsuch has said, you have
“bigger fish to fry”, but arguably, while this party
lives in the Township of Bernards, County of
Somerset, the State of New Jersey, from this case the
Court could probably conclude this party lives in the
Township of Corruption, in the County of Corruption,
in the State of corruption.
CONCLUSION
Accordingly, the Petition for Writ of Certiorari to the
New Jersey Supreme Court should be granted. Oral
arguments are NOT requested.
Respectfully submitted

/sMichael S. Barth/s
Petitioner Pro Se
December 13, 2019

